HHS/OIG, Audit -"Review of Medicaid Support for Graduate Medical Education in Iowa,"(A-07-04-03055)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of Medicaid Support for Graduate
Medical Education in Iowa," (A-07-04-03055)
April 27, 2006
Complete
Text of Report is available in PDF format (155 kb). Copies can also be obtained by
contacting the Office of Public Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine if intergovernmental transfers between Iowa
and publicly owned hospitals included any Medicaid graduate medical education funds.  We
found that  Medicaid graduate medical education funds were included in intergovernmental
transfers between Iowa and the University of Iowa Hospitals.  The University of Iowa
Hospitals (a publicly owned hospital) returned Medicaid graduate medical education funds
of $24.1 million to the State as intergovernmental transfers with no assurance that funds
would be used for the graduate medical education program or to provide services to Medicaid-eligible
individuals.  Since the entire $24.1 million graduate medical education payment was
returned, Iowa incurred no liability for the overall graduate medical education program and
actually realized a net gain of $6.6 million.  We provided the State agency with an
opportunity to respond to the audit findings.  Because the audit did not contain any
recommendations, the State agency elected not to submit written comments on the audit results
in this report.